USCA4 Appeal: 19-1174

Doc: 52

Filed: 02/24/2020

Pg: 1 of 1

/';

FILED: February 24, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-1174
(5:16-cv-00945-D)
TAMMY HORTON
Plaintiff - Appellant
v.
THE METHODIST UNIVERSITY, INC.
Defendant - Appellee

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Harris, Judge Quattlebaum, and
Senior Judge Shedd.
For the Court
/s/ Patricia S. Connor, Clerk

AppCtooltV

N

■

>

USCA4 Appeal: 19-1174

Doc: 40

Filed: 12/20/2019

Pg:1of4

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-1174
TAMMY HORTON,
Plaintiff - Appellant,
v.
THE METHODIST UNIVERSITY, INC.,
Defendant - Appellee.

Appeal from the United States District Court for the Eastern District of North Carolina, at
Raleigh- James C. Dever III, District Judge. (5:16-cv-O0945-D)
Submitted: October 24,2019

Decided: December 20,2019

Before HARRIS and QUATTLEBAUM, Circuit Judges, and SHEDD, Senior Circuit
Judge.
Affirmed by unpublished per curiam opinion.
Robert L. Sirianni, Jr., BROWNSTONE, P. A., Winter Park, Florida, for Appellant. Daniel
M. Nunn, Christopher P. Raab, CAUDLE & SPEARS, P.A., Charlotte, North Carolina, for
Appellee.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 19-1174

Doc: 40

Filed: 12/20/2019

Pg:2of4

PER CURIAM:
Tammy Horton appeals the district court’s order granting summary judgment to The
Methodist University, Inc. (“Methodist”) on her disability discrimination claims raised
pursuant to Section 504 of the Rehabilitation Act of 1973, 29 U.S.C. § 794, and the
Americans with Disabilities Act (“ADA”), 42 U.S.C. § 12101 et seq. Finding no error, we
affirm^
We “reviewf] de novo the district court’s order granting summary judgment.”
Jacobs v. N.C. Admin. Office of the Courts, 780 F.3d 562, 565 n.l (4th Cir. 2015). “A
district court ‘shall grant summary judgment if the movant shows that there is no genuine
dispute as to any materia! fact and the movant is entitled to judgment as a matter of law.’”
Id. at 568 (quoting Fed. R. Civ. P. 56(a)). “A dispute is genuine if a reasonable jury could
return a verdict for the nonmoving party.” Id. (internal quotation marks omitted). In
determining whether a genuine dispute of material fact exists, “we view the facts and all
justifiable inferences arising therefrom in the light most favorable to ... the nonmoving
party.” Id. at 565 n.l (internal quotation marks omitted). However, “the nonmoving party
must rely on more than conclusory allegations, mere speculation, the building of one
inference upon another, or the mere existence of a scintilla of evidence.” Humphreys &
Partners Architects, L.P. v. Lessard Design, Inc., 790 F.3d 532, 540 (4th Cir. 2015)
(internal quotation marks omitted).
To establish claims of disability discrimination under the Rehabilitation Act and the
ADA, Horton must establish “that (1) [s]he has a disability, (2) [s]he is otherwise qualified
to participate in the defendant’s program, and (3) [s]he was excluded from the program on
2

useA4 Appeal: 19-1174

Doc: 40

Filed: 12/20/2019

Pg:3of4

the basis of h[er] disability.” Halpern v. Wake Forest Univ. Health Scis., 669 F.3d 454,
461 (4th Cir. 2012). “A qualified individual is one who, with or without reasonable
modifications to rules, policies, or practices, meets the essential eligibility requirements for
participation in a program or activity.” Id. at 462 (alteration and internal quotation marks
omitted). In making this determination, "we accord a measure of deference to the school’s
professional judgment.”1 Class v. Towson Univ., 806 F.3d 236, 246 (4th Cir. 2015). For
the third element of a disability discrimination claim, the Rehabilitation Act requires a
showing that “the plaintiff... was excluded solely by reason of [her] disability,” while the
ADA requires a showing “that the disability was a motivating cause of the exclusion.”
Halpern, 669 F.3d at 461-62 (internal quotation marks omitted).
We conclude that Horton failed to present evidence that she was qualified to
participate in Methodist’s Physician Assistant Program (“MUPAP”). Although Horton
argues that she was qualified because she was admitted into the MUPAP, she did not meet
the MUPAP’s requirement of continued participation: that she pass all but two of her
classes. See Class, 806 F.3d at 246 (“In the context of postsecondary education, a disabled
person is qualified if [s]he shows that [s]he meets the academic and technical standards
requisite to admission or participation in the school’s education program or activity.”
(alteration and internal quotation marks omitted)); accord McGregor v. La. State Univ. Bd.

i

Thus, to the extent Horton claims that the district court erred in deferring to
Methodist’s professional judgment, her argument is foreclosed by our circuit’s precedent.
See Warfaa v. Ali, 811 F.3d 653, 661 (4th Cir. 2016) (recognizing that one panel cannot
overrule a decision issued by another panel).
3

USCA4 Appeal: 19-1174

Doc: 40

Filed: 12/20/2019

Pg:4of4

of Supervisors, 3 F.3d 850, 854 (5th Cir. 1993) (“Many students, [disabled] or not, who
qualify for admission into law school flunk out. They are not qualified for retention.”).
While Horton also contends that she would have performed better if Methodist had
provided her preferred accommodations, we conclude that no reasonable jury would agree.
Horton admitted that she failed one exam because she did not study enough. Horton failed
a second exam despite receiving additional time and her preferred accommodation of
testing in an empty room. Moreover, while Horton did not receive the double-time
accommodation she had received as an undergraduate, Methodist provided her extra time
to complete exams, and she never used all of the extra time provided to her. Thus, based
on the admissible evidence, a reasonable jury could not conclude that Horton’s failures
were the result of Methodist’s alleged failure to accommodate her disability.2
Accordingly, we affirm the district court’s order. We dispense with oral argument
because the facts and legal contentions are adequately presented in the materials before this
court and argument would not aid the decisional process.
AFFIRMED

2 Because we conclude that Horton was not qualified to participate in the MUPAP,
we need not address her arguments that her disability was the cause of her dismissal or that
Methodist failed to engage in an interactive process to find a reasonable accommodation.
4

"S

zt

IN THE UNTIED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF NORTH CAROLINA
WESTERN DIVISION
No. 5:16-CV-945-D
TAMMY HORTON,

)
)

Plaintiff,

)
)
)
)

v.

ORDER

THE METHODIST UNIVERSITY, INC, )
)

Defendant

)

On December 15,2016, Tammy Horton (“Horton” or “plaintiff’) filed a complaint against
The Methodist University, Inc. (“Methodist15 or “defendant”), alleging violations of section 504 of
the Rehabilitation Act of 1973 (“the Rehabilitation Act”) and the Americans with Disabilities Act
(“ADA”) [D.E. 1], On April 30,2018, Methodist moved for summary judgment [D.E. 34], filed a
memorandum in support [D.E. 35], and filed a statement ofmaterial facts [D.E. 36], Methodist also
filed various motions jpJE. 46,47,59,75]. On July 3,2018, Horton responded in opposition to
Methodist’s motion for summary judgment [D.E. 52-55]. On August 14,2018, Methodist replied
[D.E. 57]. As explained below, the court grants Methodist’s motions for summaryjudgment, to seal,
for leave to file, and to strike.
L
From 2010 until December 2012, Horton attended Methodist as an undergraduate student.
See [D.E. 36] f l.1 In 2012, Horton graduated with a Bachelor of Science degree in biology. See
1 Under Local Civil Rule 56.1, a party opposing a motion for summary judgment shall
submit “a separate statement including a response to each numbered paragraph in the moving party5 s
statement [of material facts].” Local Civ. R. 56.1(a)(2). “Each numbered paragraph in the moving
party’s statement of materiai tacts will be deemed admitted for purposes of the motion unless it is

Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 1 of 13

id. f 2. While an undergraduate, Horton applied for and received academic testing accommodations
because ofher “anxiety in close quarters [and] test anxiety.” Id. 6-7 (quotation omitted). Horton
worked with Linda Szulc (“Szulc”), Methodist’s Director of Accessibility Resources/Disability
Services, to receive testing accommodations. Sec id. f 6. The accommodations included “double
time for exams in a reduced distraction environment.” Id.

6. 8 (quotation omitted). Horton

received accommodations for all of her science classes. S§g id.^ 8.
Soon after Horton graduated from Methodist, Horton’s husband, Eric Horton, medically
retired from the United States Army. See id. f 23. On July 25,2013, Horton applied to serve as her
husband’s primary family caregiver. See id. f 24. On January 14,2014, after completing the VA
National Veteran Caregiver Training Program, Horton was designated as her husband’s primary
family caregiver. See id.

25-26. As part of Horton’s role as a primary family caregiver, Horton

received an hourly wage of $ 11.10 (40 hours per week and 174 hours per month, totaling $1,931.40
per month). See id.

27-29.

On January29,2014, Horton applied for Methodist’s Physician Assistantprogram (“MUPA
specifically controverted by a correspondingly numbered paragraph in the opposing statement.” Id.
“Each statement by the movant or opponent... must be followed by citation to evidence that would
be admissible, as required by Federal Rule of Civil Procedure 56(c).” Local Civ. R. 56.1(a)(4).
Under Rule 56(c), a party disputing a material fact must support its position by “citing to particular
parts ofmaterials in the record, including depositions, documents, electronically stored information,
affidavits or declarations, stipulations (including those made for purposes of the motion only),
admissions, interrogatory answers, or other materials” or by “showing that the materials cited do not
establish the absence or presence of a genuine dispute, or , that an adverse party cannot produce
admissible evidence to support the fact” Fed. R. Civ. P, 56(cXl). Merely responding that a party
“disputes” a material fact is insufficient under Rule 56 and Local Rule 56.1. See Howard v. Coll.
of tire Albermarle. 262 F. Supp. 3d 322,329 n.l (E.D.N.C. 2017), gffd, 697 F. App’x'257 (per
curiam) (unpublished).
Horton’s reply to Methodist’s statement ofmaterial facts [D.E. 55] violates Local Rule 56.1.
See [D.E. 58] (summarizing Horton’s violations). To the extent that Horton does not oppose any
statement ofmaterial fact by citing to particular parts ofthe record or showing that Methodist cannot
support its position based on evidence in the record, the court deems the material fact admitted. See
Howard. 262 F. Supp. 3d at 329 n.1.
2

Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 2 of 13

program”). See id. ^ 19. Methodist admitted Horton to the MUPA program, and Horton began
classes in September 2014. See id. 22. Horton also continued to serve as her husband’s caregiver.
See id. f 33. The MUPA program is “a rigorous graduate professional and academic program” that
consists of one year of academic courses and one year of clinical rotations. Id. Yf 47-48. The first
year consists of 38 courses, and students are assessed through formal written testing. See id.

47,

52. The MUPA program “prohibits students from being employed while attending the program,
which is common at most Physician Assistantprograms.”

57. Additionally, Methodist students

are responsible for requesting academic accommodations. See id. f 59. Students must finish with
a 3.0 grade point average (“GPA”) in order to graduate from the MUPA program. See id. 62. The
lowest passing score a student can receive is a C. See id. ^ 63. If a student tails any course, the
student must remediate the course or else the student is automatically dismissed from the program.
See id. f 64. A student may remediate only two courses. See id. f 66. Ifa student fails a third class,
the student is automatically dismissed from the program. See id. Students may apply for and receive
academic accommodations, but students need not use approved academic accommodations. See id.
Yf67,73. Upon enrolling, Horton received a copy oftile MUPA program’s policies, and she signed
a form acknowledging that she received the program’s policies. See id. Yf 79,85.
During the Fall 2014 semester, one of Horton’s professors, Dr. Matthew Kesic (“Kesic”),
described Horton as “an average student,” Id. ^91. Horton told Kesic that she had test anxiety, and
Kesic recommended that Horton consult with Szulc, Dr. Deborah Morris (“Morris”), the Academic
Coordinator ofthe MUPA program, and Horton’s academic advisor concerning her test anxiety. See
id.

92: Horton did not, however, consult with these three individuals during the Fall 2014

semester, and Horton never informed Kesic that she had received academic accommodations while
she was an undergraduate at Methodist See id. ffif 93-94. In fact, Horton never requested academic
3
Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 3 of 13

accommodations during the Fall 2014 semester. See id. f 95. Among the nine courses that Horton
took during Fall 2014, Horton received a C+ in Physiology, a C in Gross Human Anatomy, and
failed Pharmacology I. See id.

90.96; [D.E. 42-12] 1. Morris notified Horton that she had failed

Pharmacology I and began working with Horton to develop a plan to remediate the course. See [DJB.
36] f 99; [D.E. 39-4]. After Morris sent Horton a message concerning topics to focus on for
improvement in Pharmacology I, Horton replied:
Don’t be surprised ifyou have a difficult time trying to determine the areas where I
was weak because my poor performance was due to a general lack of knowledge
regarding the chapters. I didn’t have difficulty with the material itself I just did not
study it
[D.E. 39-4]; see [DJ3.36] f 100. Horton successfully remediated Pharmacology I, although Horton
still did not request or mention academic accommodations. See [D.E. 36] f 101. At the end of the
semester, Horton had a 2.914 GPA. See id. f 103; [DJB, 42-12] 1.
At the beginning ofthe Spring 2015 semester, Horton met vrith Dr. Lori Brookman Cornwell
(“Cornwell”), the Dean of the School of Health Sciences at Methodist from 2012 until July 2015.
See [D.E. 36] ff 44,105. During the meeting, Horton notified Cornwell that Horton suspected
Horton’s peers in the MUPA program may be cheating. See id. f 105. Following the meeting,
. Horton e-mailed Cornwell and said that she was “very grateful to know that [she could] come to
[Cornwell] and share [her] concerns.” IcLf 106; [D.E. 40-9], Nevertheless, Horton never raised any
concerns about academic accommodations with Cornwell. See [D.E. 36] f 108.
Dining the Spring 2015 semester, Methodist faculty identified Horton as a “struggling
student” M,f 109. Horton met with various faculty members, including Morris and Christina Beard
(“Beard”), the Program Director for the MUPA program, several times during the Spring 2015
semester to address Horton’s poor academic performance. See id. ff 111-12.116-19. For example,

4
Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 4 of 13

on March 12,2015, Beard met with Horton to'discuss a Gastroenterology exam (on which students
in the MUPA program rarely struggled) that Horton had failed. SegicLf 112. Beard concluded from
the meeting that Horton’s “primary problem was a lack of comprehension of foundational concepts
more so than difficulty with test taking skills as [Horton] seemed to believe.” KL f 114; [D.E. 38-1]
f 50. Beard also noted Horton’s “struggles across the curriculum.” [D.E. 36] f 115; [D.E. 38-1] f
51. Both Beard and Morris recommended that Horton seek academic accommodations. See [DJE.
42-5J.
On March 25, 2015, Horton e-mailed Szulc and expressed a desire to have academic
accommodations, but did not request any specific accommodation. Sre id; [DJE. 36] f 124. Szulc
said that she would contact Morris concerning Horton’s undergraduate accommodations. See [DJE.
42-5]. On March 30, 2015, Szulc e-mailed Morris and explained that Horton had qualified for
academic accommodations as an undergraduate at Methodist See [DJE. 39-6]; [DJE. 36] ff 126-27.
Szulc also described the nature of these accommodations to Morris. See [D.E. 36] f 126. Morris
and Beard agreed that Horton should receive “150% of the standard time on exams,” instead of the
double time that Horton had received as an undergraduate. See [D.E. 36]

128-31. Methodist

made no accommodations concerning Horton’s physical testing environment C£ [DJE. 36] *1135.
Methodist scheduled final exams for Spring 2015between April 7,2015, and April 17,2015.
See id. ^ 141. On April 1,2015, Horton’s brother unexpectedly died, and Horton “took time off
from school as a result” Id, f 140. As a result Morris rescheduled some of Horton’s final exams.
Horton took her exams either in a vacant office or in the scheduled testing room. See id. f 142.
Horton never objected to her testing environment or the length oftime that she received to complete
her exams. S^icL^ 145-46. Of the eleven exams that Horton took in Spring 2015, Horton failed
five. See id, H147. Horton ultimately failed Pharmacology n, and Horton was required to remediate
5
Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 5 of 13

the course. See id. \ 149. On April 17,2015, Morris and Beard recommended that Horton withdraw
from the programbecause, ifshe failed one more course, she would be automatically dismissed from
the program. See id.

154-60. Morris and Beard guaranteed Horton that, if she withdrew, she

would be re-admitted to die program the following year. Seeid.f 161. On April 20,2015, Horton
declined to withdraw from die MUPA program See M. f 165. Horton’s GPA at the end of Spring
2015 was 2.763. gee id, % 170; [D.E. 42-12] 1.
Horton continued to struggle academically during the Summer 2015 semester. See [D.E. 36]
f][ 172-78. On July 30,2015, Horton acknowledged that “she needed to put forth more effort.” Id,
f 181. Of the twelve courses that Horton took during Summer 2015, Horton received a C+ or lower
in five of them. See id. 178. Horton’s GPA after Summer 2015 was 2.803, which was last in her
class. See id,^ 188; [D.E. 42-12] 2. Horton still did not raise concerns about her accommodations,
and Horton still did not seek assistance from ter professors during die semester. See [D.E. 36]
184,189.
At the start of the Fall 2015 semester, Horton met with Dr. Todd Telemeco (“Telemeco”),
who replaced Cornwell as the Interim Dean ofthe School ofHealth Sciences, to discuss “issues with
academics, her fellow students, and the [program’s] faculty.” Id. f 190. In part, Horton discussed
her grade in Pharmacology HI, a course that she took in Summer 2015. tee id. f 191. Horton
appealed her grade in Pharmacology M, and Methodist raised her grade to a B-. See id. ff 198-99.
Later in die semester, Horton met with Kesic because Horton “was having problems with
Orthopedics and... the final exam worried her.” Id. ^206: see [PJE. 40-10] 22-23. Horton took
the Orthopedics final exam in the regular testing room. {See hLff 210,213. Horton did not request
additional time and, in fret, turned the exam in five to ten minutes early. See id. fflf 212.218-20,
223. Horton scored a 62% on the exam, resulting in a 69% overall in the course. See id. f221.228.
6
Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 6 of 13

Horton’s cumulative GPA after the semester was a 2.8590. See id.

229-30; [D.E. 42-12] 3.

Because Horton failed her third course, Methodist dismissed her from the MUPA program
in October 2015. See [D.E. 36] f 231. On October 14,2015, Horton met with Beard and Telemeco
to discuss her dismissal. See id. f232. During the meeting, Horton did not raise any concerns about
her academic accommodations. See id. Horton sent a series of e-mails to Beard after the meeting,
but Horton still did not question her accommodations. See id, f 235; [D.E. 38-4]. On October 16,
2015, Horton also e-mailed her Orthopedics professor, Dr. Susan Greer Fisher (“Fisher”), and
attempted to explain why Horton believed her incorrect answers to be correct See [D.E. 36] tlf
237-41; [D.E. 40-2]; cl [D.E. 40-3]. In the e-mail, Horton did not question her accommodations.
See [DJB. 36] f 239.
On October 19,2015, Horton appealed her Orthopedics grade and her dismissal from the
program. Sre [D.E. 36]

254, 258-60; [D.E. 44-2].2 In her appeal, Horton raised issues

concerning her academic accommodations. See [D.E. 36] f 263. As for Horton's grade appeal,
Fisher added points to Horton’s Orthopedics final exam and homework, which increased her final
grade to 70%. See id. f 265-66. Even with the adjustment, Horton still received a failing grade.
See id. f266. Telemeco reviewed the decision and concluded that Horton had received appropriate
accommodations and affirmed that Horton had failed Orthopedics. See id,

275-84. On

November 6,2015, Horton withdraw her appeals. See id. f 289: 0D.E. 42-11].

n.
Summary judgment is appropriate when, after reviewing the record as a whole, the court
determines that no genuine issue ofmaterial fact exists and the moving party is entitled to judgment
2 On the same date, Horton also filed a disability grievance with the United States
Department ofEducation Office for Civil Rights. See [DJB. 36] f256: fDJE. 44-101. On December
9,2015, the Office for Civil Rights dismissed Horton’s grievance. Sre [D.E. 36] f 257.
7

Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 7 of 13

as a matter of law. Fed. R. Civ. P. 56(a); Anderson v. Liberty Lobby. Inc.. 477 U.S. 242,247-48
(1986). The party seeking summary judgment must initially demonstrate the absence of a genuine
issue of material fact or die absence of evidence to support the nonmoving party’s case. Celotex
Corp. v, Catrett 477 U.S. 317, 325 (1986). Once the moving party has met its burden, fee
nonmoving party may not rest on the allegations or denials in its pleading, Anderson. 477 U.S. at
248-49, but “must come forward wife specific facts stowing feat there is a genuine issue for trial.”
Matsushita Elec. Indus. Co. v. Zenith Radio Corp.. 475 U.S. 574, 587 (1986) (emphasis and
quotation omitted). A trial court reviewing a motion for summary judgment should determine
whether a genuine issue of material feet exists for trial. Anderson. 477 UJS. at 249. In making this
determination, the court must view the evidence and the inferences drawn therefrom in the light most
favorable to fee nonmoving party. Scott v. Harris. 550 U.S. 372,378 (2007).
A genuine issue ofmaterial feet exists ifthere is sufficient evidence favoring fee nonmoving
party for a jury to return a verdict for that party. Anderson. 477 U.S. at 249. “The mere existence
ofa scintilla ofevidence in support ofplaintiffs position [is] insufficient...Id. at252.: see Beale
v. Hardv. 769 F.2d 213, 214 (4fe Cir. 1985) (“The nonmoving party, however, cannot create a
genuine issue of material fact through mere speculation or the building of one inference upon
another.”). Only factual disputes feat affect fee outcome under substantive law properly preclude
summaryjudgment See Anderson. 477 U.S. at 248.
A.
Horton alleges feat Methodist discriminated against her in violation of section 504 of fee
Rehabilitation Act See Compl. [D.E. 1] tlf 69-79. The Rehabilitation Act “precludes federal
grantees from excluding, denying benefits to, or discriminating against any otherwise qualified
individual solely by reason ofher or his disability.” Halpem v. Wake Forest Univ. Health Scis.T 669
8
Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 8 of 13

F.3d 454,461 (4th Cir. 2012) (quotation and alteration omitted); gre 29 U.S.C. § 794(a). “In the
context of a student excluded from an educational program, to prove a violation of [the
Rehabilitation Act], the plaintiff must establish that (1) [she] has a disability, (2) [she] is otherwise
qualified to participate in the defendant’s program, and (3) [she] was excluded from the program on
the basis of [her] disability.” Halpem. 669 F.3d at 461 (footnote omitted); see Constantine v.
Rectors & Visitors of George Mason Univ.. 411 F3d 474,498 (4th Cir. 2005); Baird ex rel. Baird
v. Rose. 192 F.3d 462,467 (4th Cir. 1999); Doe v. Univ. of Md. Med. Svs. Coro.. 50 F.3d 1261,
1264-65 (4th Cir. 1995). The Rehabilitation Act requires a plaintiff to demonstrate that she was
“excluded solely by reason of [her] disability.” Halpem. 669 F.3d at 462 (quotation omitted); see
29 U.S.C. § 794(a); Baird. 192 F.3d at 469.
The court assumes without deciding that Horton has a disability for the purposes of the
Rehabilitation Act Even assuming- that Horton has a disability, no rational jury could find that
Horton is otherwise qualified to participate in the MUPA program. A “qualified” individual is one
“who, with or without reasonable modifications to rules, policies, or practices, meets the essential
eligibility requirements for participation in a program or activity.” Halpem. 669 F.3d at 462
(quotation and alteration omitted); see Class v. TowsonUniv.. 806F.3d236,245-46 (4th Cir. 2015);
Constantine. 411 F.3d at 498. To show that she was qualified for the MUPA program, Horton must
show that (1) she could satisfy the essential eligibility requirements of the program, and (2) if she
cannot, whether “any reasonable accommodation by the defendant would enable [her] to meet” the
program requirements. Halpem. 669 F.3d at 462 (alteration and quotation omitted); see Neal v,
Univ. of N.C.. No. 5.17-CV-186-BR, 2018 WL 2027730, at *4 (E.D.N.C. May 1, 2018)
(unpublished).
Courts generally afford a degree ofdeference to “schools’ professional judgments regarding
9
Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 9 of 13

students’ qualifications when addressing disability discrimination claims ” Haipemu 669F.3dat463
(collecting cases); Neal. 2018 WL 2027730, at *4. Viewing the evidence in the light most favorable
to Horton, no rational jury could find that Horton was otherwise qualified to participate in the MUPA
program. Notably, after her first year, Horton’s GPA would not have been high enough for her to
graduate from the MUPA program unless she performed significantly better in her second year. See
[DJB. 36] f 170; [D.E. 42-12]. Horton also failed three courses, and she acknowledged that she did
not study enough for at least one of them. See [D.E. 39-4]: [D.E. 36] f 100. Moreover, Horton was
employed as her husband’s primary caregiver throughout her time at Methodist, a violation of the
MUPA program’s requirement that students not be employed while in the program. See [D.E. 36]
f 33. Affording deference to the MUPA program as a post-secondary medical program and viewing
the evidence in the light most favorable to Horton, Horton was not otherwise qualified for the MUPA
program.
Alternatively, even ifHorton could establish that she was otherwise qualified for the MUPA
program with or without academic accommodations, no rational jury could find that Methodist
excluded Horton from the MUPA program solely based on her disability. See Halnern. 669 F.3d at
466-67; Neal, 2018 WL2027730, at *5—6. Methodisthadalegitimate reason for dismissingHorton:
poor academic performance. Horton struggled in her courses even when she received academic
accommodations, and Horton failed three courses. Accordingly, the court grants Methodist’s motion
for summary judgment concerning Horton’s Rehabilitation Act claim.
B.
In her second claim, Horton alleges that Methodist discriminated against her based on her
disability in violation of Title HI of the ADA. See Compl. [D.E. 1] Tf 80-89. Title IE of the ADA
provides that “[n]o individual shall be discriminated against on the basis of disability in the full and
10

Case 5:16-cv-Q0945-D Document 86 Filed 01/23/19 Page 10 of 13

equal enjoyment ofthe goods, services, facilities, privileges, advantages, or accommodations ofany
place of public accommodation by any person who owns, leases..., or operates a place of public
accommodation.” 42U.S.C. § 12182(a): see Halpem. 669 F.3d at 461. Discrimination includes “a
failure to make reasonable modifications in policies, practices, or procedures,” unless “such
modifications would fundamentally alter the nature of [the program].”

42 U.S.C. §

12182(b)(2)(A)(ii). The ADA requirements are nearly identical to the Rehabilitation Act’s
requirements. Sex: Halpem. 669 F.3d at 461; Freilich v. Upper Chesapeake Health. Inc.. 313 F.3d
205,214 (4th Cir. 2002); Doe, 50 F.3d at 1264 n.9; NeaL 2018 WL 2027730, at *3. The ADA,
however, has a different causation requirement than the Rehabilitation Act An ADA plaintiffneed
establish only that her disability was “a motivating cause of the exclusion,” and not the sole
motivation. Halpem. 669 F.3d at 462 (quotation omitted); see Baird. 192 F.3d at 468-70.
Viewing the evidence in the light most favorable to Horton, no rational jury could find that
Horton was otherwise qualified for the MUPA program. Horton frequently either did not request
or did not use academic accommodations during exams in her first year. Even with academic
accommodations, Horton performed poorly in her first-year courses. For example, Horton failed
three courses during her first year. Moreover, Horton’s cumulativeGPA was too low for Horton to
graduate. Thus, she would have needed to improve her academic performance substantially during
her second year. Even viewing the evidence in the light most favorable to Horton, no rational jury
could find that Horton’s disability was a motivating cause of her dismissal. See Halpem. 669 F.3d
at466-67; NeaL 2018 WL2027730, at *5-6. Accordingly, the court grants Methodist’s motion for
summary judgment concerning Horton’s ADA claim.
Ill
Methodist moved to strike Horton’s first and second affidavits, Scott MacKenzie’s affidavit,
11
Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 11 of 13

and a letter from Tiffany Puckett See [D.E. 59]; [D.E. 75]. Horton’s first affidavit, which she
submitted to support her response to Methodist’s motion for summaryjudgment, [D.E. 53-11], does
not comport with Rule 56. See Fed. R. Civ. P. 56(c)(4); Antonio v. Barnes. 464 FJ2d 584,585 (4th
Cir. 1972) (per curiam); King v. N.C. Den’t ofPub. Safety. No. 5:12-CV-l 52-F, 2014 WL 69601,
at *2-3 (E.D.N.C. Jan. 8,2014) (unpublished). Thus, the court grants Methodist’s motion to exclude
all portions ofthe affidavit that do not comply with Rule 56. As for Horton’s second affidavit [D.E.
, 67-1], Horton cannot submit a supplemental affidavit that contradicts her deposition testimony to
avoid summary judgment See Cleveland v. Policy Mgmt. Sys. Corp.. 526 U.S. 795,806 (1999);
In re Family Dollar ELSA Iitig.. 637 F .3d 508,512 (4th Cir. 2011); Rohrbough v. Wveth Labs.. Inc,.
916 F.2d 970,975 (4th Cir. 1990); Barwick v. Celotex Coro.. 736 F.2d 946,960 (4th Or. 1984).
Thus, dm court grants Methodist’s motion to strike Horton’s second affidavit
As for Scott MaeKenzie’s affidavit [D.E. 53-15], Horton did not disclose MacKenzie as an
expert as required by the court’s scheduling order and the Federal Rules ofCivil Procedure. See Fed.
R. Civ. P. 26(a)(2). The affidavit also violates the Federal Rules of Evidence. See Fed. Fed. R.
Evid. 702. Accordingly, the court grants Methodist’s motion to exclude MacKenzie’s affidavit. See
Fed. R. Civ. P. 37(cXl); McCall ex reL Estate ofMcCall v. Moranl 710 F. App’x 594,595 (4th Cir.
2018) (per curiam) (unpublished! cert denied. 139 S. Ct 78 (2018); S. States Rack & Fixture. Inc,
v. Sherwin-Williams Co.. 318 F.3d 592, 597 (4th Cir. 2003); Gallagher v. S. Source Packaging.
LLC. 568 F. Supp. 2d 624,632 (E.D.N.C. 2008).
As for Tiffimy Puckett’s letter [D.E. 53-12], Horton first disclosed the letter in her response
to Methodist’s motion for summary judgment Puckett drafted foe letter on May-23,2018, nearly
two months after discovery closed. See [D.E. 53-12]. Horton never disclosed Puckett’s identity
during discovery. Accordingly, foe court grants Methodist’s motion to exclude Puckett’s letter.
12

Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 12 of 13

IV.
In sum, the court GRANTS defendant’s motion for summaryjudgment [D.E. 34], GRANTS
defendant’s motion to seal {jDJE. 46], and GRANTS defendant’s motion for leave to file [D.E. 47].
Additionally, the court GRANTS IN PART defendant’s first motion to strike [D.E. 59] and
GRANTS defendant’s second motion to strike [D.E. 75]. Defendant may file a motion for costs in
accordance with the Federal Rules of Civil Procedure and this court’s local rules. The cleric shall
close the case.
SO ORDERED. This

day of January 2019.

evISA in
jaIies cjdever

United States District Judge

13
Case 5:16-cv-00945-D Document 86 Filed 01/23/19 Page 13 of 13

